, : , BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.
JULIE

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 40 copies and
1 unbound copy of the foregoing Brief for the American
Intellectual Property Law Association as Amicus
Curiae in Support of Neither Party in 19-46, United
States Patent and Trademark Office, et al. v.
Booking.com B. V, were sent via Next Day Service to
the U.S. Supreme Court, and 3 copies were sent via
Next Day Service and e-mail to the following parties
listed below, this 13th day of January, 2020:
Noel Francisco
Solicitor General of the United States
Room 5616
DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Petitioners
Lisa Schiavo Blatt
Williams & Connolly LLP
725 12th Street, NW
Washington, DC 20005
(202) 434-5050
lblatt@wc.com
Jonathan E. Moskin
Foley & Lardner LLP
90 Park Avenue
New York, NY 10016-1314
(212) 682-7474
j moskin@foley.com
Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

A.

KERSHNER, J.D.

Craig B. Whitney
Counsel of Record
Frankfurt Kurnit Klein & Selz P.C.
28 Liberty Street
New York, NY 10005
(212) 826-5583
cw hitney@fkks.com
Barbara A. Fiacco
President
American Intellectual Property Law Association
1400 Crystal Dr.
Suite 600
Arlington, VA 22202
(703) 415-0780

Counsel for Amie us Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on January 13, 2020.

)(
Donna J. Wolf 'Becker Gallagher Legal
lishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

